                                      NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM

Case Number: A08120066                                                       Page 1 of 1


    Several members of a review panel noted the similarity between two proposals (PIl
    and P2 2) whose PIs (PH and PI2, respectively) had worked in the same lab and
    suspected (a) they either worked together on the proposals and were trying to double
    their funding chances by submitting the same idea in two proposals with different PIs
    or (b) one may have copied from the other. The panelists informed the Program
    Manager (PM), who relayed the information to us.
    We wrote PH and PI2 asking about the similarities in their proposals. We learned PI2
    was first a graduate student and then a postdoctoral associate in PH's lab. The
    university gave PI2 a new title to better reflect his research accomplishments and
    allow him to submit proposals independently. PH and PI2 worked together in the
    same research area and published together. Although both PIs knew the other was
    preparing a proposal, neither knew the specifics of the other's proposal. Since they
    both worked on the same research, it was not surprising they unknowingly submitted
    similar research. Both PIl and PI2 solely wrote their own proposal, and neither
    communicated with the other during the preparation of the proposals.                         I
                                                                                              . I
                                                                                               .-j
    Bas~d on the  responses of PH and PI2, we conclude the similarity in their proposals is
    due to their history of working together on the same research and not because they
    either (a) coordinated their submission to increase their funding opportunity, nor (b)     '1
    copied any material from each other. Thus, there is no evidence to support the
    allegation of attempted duplicate funding or plagiarism and, accordingly, this case is
    closed.




       1   (redacted).
       2   (redacted).
